OFFICE OF THE INSPECTOR GENERAL




           EVAI"UATION OF TilE
U.S. INTERNATIONAL TRADE COMMISSION'S
FISCAL YEAR 2003 INFORMATION SECURITY
         PROGRAM AND PRACTICES

             Audit Report
             0IG-AR-03-03




                            September 22, 2003
                                                               IG -A A-014




UNITED STATES INTERNATIONAL TRADE COMMISSION

                         WASHI NGTON, D.C.     aoeae
 September 22, 2003

 MEM ORA ND UM

 TO:    THE COMMISSiON

 We hereby subm it Aud it Report No . O IG·AR-0 3-03, Evaluation ofrhe Us.
 Inremational Trade Cmnmissio/J's n sca f r ear 2()()J fnf ormalw n Security
 Program and Practices. W e conducted an independent evaluatio n ofthe
 Commission's information security program and pI<I\.1ices to det ermine if the
 CQIlUllission: ( 1) implem ented appropriate act ions to address
 recommend atio ns made in OIG-AR-D2-Q2 (September 13, 2 002); and (2) met
 Federallnfonnation Security M anagement Ad cri teria.

 Genera lly, the Commission made progress towards stren gt hening its
 information security program d urin g the 2003 fiscal year. The most
 commendable aewmplishm ents inc lude:

        -/ Filling the position o f Chief lntbnnatlon Officer (CIO);

        -/ Incorporating in the C IO's performance measures the successful
           resolution o f open rc«Immendations in the OIG infonnation
           technology audit reports;

        -/ Assessing the costs and benefits of obtaining vendor su pport for
           essenti al informa tion tec hno logy services ; and

        -/ Provid ing technical training to the network adm in istrator, who will
           oversee (>IJlSOurced network maintenance as well as o ther techn ical
           staff.

Atso, the Commission procu red a new network operating system (llew !TC-
NET) that has the capability to strengthen access wlI!rols. We d id nol test
thes e controls, however , because the Commission had 110 t oom ple1ed
inst alli ng it and certi fying it for use.
11M: Commission m usttake further ac lion in o rder to achie\ e cu'lSi ' lenc y with
U.S. O ffice of Managemeol and 8 udgd (O MB) Circular No. A. 1J O,
Append ix III $ecu.rityof F~I AU'O#III2/nJ Information Resourcn (Febnaary
1996). We made 18 I"\'COmmcndalions 10 impro~·e the Commission '. IT
-=unt,.. In addilioo lO the 16 recommendalions from 0lG-AR.{J2-4l 2
(Scplembc:r 13, 2002). this report identifies 6 _ , unreported or paniai ly
resolved weeknesses, The Commi!lSion ~ with our findinp and
~""""""""'-

Due 10 !he scnsili ~ nalUrC o fl hc information contained in our n:port. ... e ha~
limiled dislribution of the rq><>rt.


                                          ,/;,..;zL/c:d/4'-.-
                                                Kenneth F. Clarice
                                                I"""""" General
